         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Special Report

NNSA's Management of the $245
Million Nuclear Materials Safeguards
and Security Upgrades Project
Phase II




DOE/IG-0901                        January 2014
                                  Department of Energy
                                    Washington, DC 20585

                                         January 2, 2014

MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Special Report on "NNSA's Management of the
                         $245 million Nuclear Materials Safeguards and Security Upgrades
                         Project Phase II at Los Alamos National Laboratory"

BACKGROUND

The National Nuclear Security Administration's Los Alamos National Laboratory (LANL) is
responsible for the protection and control of a significant portion of the Nation's special nuclear
materials. Los Alamos National Security, LLC (LANS) is the management and operating
contractor for the Laboratory. To address aging security infrastructure, NNSA is now in the final
phase of a project to upgrade security at the Laboratory's Technical Area-55, a facility that
houses high-security plutonium assets and operations. These upgrades, known collectively as the
Nuclear Materials Safeguards and Security Upgrades Project - Phase II (NMSSUP), began in
2009. While LANL retained the option to perform some work, it divided the bulk of the project
into five firm-fixed price subcontracts that were awarded to one design company and three
construction contractors. Due to favorable contract bids in April 2011, NNSA reduced the
estimated total project cost from $245 million to $213 million. The project, which consisted of
more than 2,200 scheduled activities, was expected to be completed in January 2013.

In September 2012, LANL issued stop work orders to contractors due to ongoing quality
concerns with construction, and on October 23, 2012, suspended work on the project due to its
inability to complete it within budget. In January 2013, LANL submitted a revised estimate to
NNSA that increased the total project cost to $254 million and extended project completion to
December 2013. Subsequent to its submission of the revised estimate, and as part of a settlement
agreement, LANS agreed to reimburse NNSA $10 million in unallowable project costs. NNSA
approved the incremental funding required to complete the project in January 2013, and work
resumed.

Because of the importance of NMSSUP to the security of LANL's nuclear materials and the
significant cost involved, we conducted a special review to determine the underlying reasons that
the project was not completed within cost and schedule.

RESULTS OF AUDIT

Our review revealed that the NMSSUP suffered from a number of project management
weaknesses. These issues ultimately resulted in cost increases of as much as $41 million and
                                                 2


delayed completion of the project by nearly a year. Specifically, neither NNSA nor LANL had
ensured that:

   •   Work scope was fully and accurately planned. In particular, LANL contracted for
       construction work based on designs that either did not reflect actual site conditions or
       were incomplete. For example, LANL awarded a contract in 2010 to construct a North
       Security Fence without ensuring that the design reflected up-to-date site conditions. A
       2007 site survey determined that there was sufficient supporting soil to construct the
       fence. However, the land subsequently eroded due to environmental conditions after the
       completion of the survey and LANL had not updated the subcontracted design. To
       address this issue, LANL authorized the construction of a retaining wall. After
       construction began, project officials discovered that they had failed to identify that the
       retaining wall foundations were in the path of an existing radioactive liquid waste line.
       As a result, an additional retaining wall was required. The additional, unplanned
       retaining wall increased project costs by $11.7 million.

   •   Construction contractors were required to promptly correct inferior work. During our
       review we observed and learned from LANL officials of many examples of substandard
       work performed by construction contractors. These deficiencies included the failure to
       install rebar dowels that tie one section of poured concrete to the next and several quality
       problems related to fencing. Fencing problems included problems related to post
       spacing, post alignment, post-hole centering, height of concrete crowns, and grading for
       drainage.

   •   Management systems provided a transparent, clear and consistent view of the project's
       schedule and cost performance. LANL's schedule was not accurate or fully integrated
       and as a result, the schedule masked the impact of project delays by assuming unrealistic
       future performance. For example, the project's December 2011 schedule reported that it
       would complete the remaining scope of work in 47 percent less time than the original
       timeline. Given that the project had already experienced a negative schedule performance
       trend, this level of performance appeared to be highly unlikely and should not have been
       relied upon. In fact, it was not sustained. Similarly, the project's Earned Value
       Management System (EVMS) cost and schedule performance metrics consistently
       reported satisfactory performance and showed no indication that the project would
       exceed its authorized schedule and budget.

In addition, management information systems failed to provide accurate and complete
information about the funds available to complete the remaining work scope. For example,
although Los Alamos Field Office officials were aware of the large potential liabilities and cost
overruns that were likely to require contingency funds, action was not taken to report the
combined impact to the NNSA Administrator in a timely manner. NNSA stated that the amount
of contingency reported to the Administrator was based on automatically generated approved
baseline changes that could take several months to be reflected in the reporting system. We
found that approved baseline changes did not include potential liabilities and cost overruns, and as
such, were not reflected in reported amounts of available contingency funds.

According to a Department subject matter expert on contingency, the actual amount of available
contingency should have been adjusted to reflect potential liabilities and cost overruns. Such
                                                 3


adjustments to contingency funds ensure that sufficient contingency funds are available to avoid
exceeding project funding levels. Further, NNSA stated that the Administrator was informed
about additional costs projected from trends and project risks that were not reflected in
contingency. However, we found that periodic briefings to the Administrator had not disclosed
that there was a potential funding shortfall until May 2012, 4 months before LANL issued a stop
work order. If information on the effect of potential liabilities and cost overruns had been
disclosed earlier, NNSA may have been able to take action to avoid the project shutdown a year
later.

                                       Project Management

Project management weaknesses occurred or continued to exist despite being identified at several
levels because: (1) key management officials were not qualified or authorized to take prompt
action; (2) the Los Alamos Field Office and LANL failed to take effective corrective actions to
address numerous assessment findings; (3) LANL failed to hold its contractors accountable; and
(4) NNSA and LANL did not have accurate management reporting systems.

                                 Project Staffing and Authorities

The Los Alamos Field Office did not staff the NMSSUP for successful project execution and did
not provide sufficient authority to the Federal Project Director to correct LANL performance
concerns. Specifically, NMSSUP's $245 million total project cost required that the Federal
Project Director have a Level-3 certification in project management; however, the Los Alamos
Field Office assignee lacked the necessary certifications to manage a project of NMSSUP's size.
Since 2008, several project reviews and management reports identified this as a concern.
Although NNSA stated it expected appropriate certification by June 2011, it did not occur.

In addition, the Federal Project Director did not possess the Contracting Officer's Representative
authority necessary to direct LANL to take corrective actions. This was based on a local Los
Alamos Field Office practice to limit the number of Federal employees providing official
direction to LANL. Without contractual authority, the Federal Project Director was unable to
direct LANL to correct problems, such as those related to quality, without enlisting the help of
other NNSA officials. Moreover, several NNSA reviews as early as September 2009, identified
this lack of authority as adversely impacting the Federal Project Director's ability to direct LANL
in project performance.

Instead of the Federal Project Director, Contracting Officer authority was assigned to a senior Los
Alamos Field Office official, who was not in a position to effectively monitor the project. As the
NMSSUP Contracting Officer's Representative, it was the senior Los Alamos Field Office
official's responsibility to provide written direction to LANL to correct problems, such as those
related to quality. However, the senior official provided us with only one written memorandum
to LANL that formally communicated performance issues. In fact, a March 2012 Peer Review
observed that the senior official did not appear to be actively engaged with the day-to-day
activities of the project. The senior official had numerous other responsibilities in addition to
NMSSUP and could not redelegate his authority. He told us he relied on the Federal Project
Director to provide the LANL performance concerns requiring his attention. According to
NNSA management, problems with the Federal Project Director authority and certification
continued until a high-level organizational realignment reassigned the Federal Project Directors
                                                4


to NNSA's Office of Acquisition and Project Management (APM). Upon enactment of the
reorganization, APM immediately appointed a properly certified Federal Project Director with
formal Contracting Officer's Representative authority and more direct access to both NNSA
management and the NMSSUP Contracting Officer.

                                      Contractor Assurance

We also found that LANL's Contractor Assurance System (CAS) failed to provide management
with an accurate report on the NMSSUP project. Specifically, the CAS consistently reflected
satisfactory project performance, contrary to the actual project performance and project
assessments by Department personnel. This was directly analogous to the situation we observed
during our review of the security breach at the Y-12 National Security Complex, Inquiry into the
Security Breach at the National Nuclear Security Administration's Y-12 National Security
Complex (DOE/IG-0868, August 2012). In that instance, we observed that Y-12 National
Security Complex provided similar positive CAS reports preceding the security incident at that
site. As we noted in our review on contractor governance, Audit Report on the National Nuclear
Security Administration Contractor Governance (DOE/IG-0881, February 2013), weaknesses in
the application of NNSA's chosen contractor governance model created an environment in which
contractor problems identified at the site level were not effectively communicated to senior
management officials. Federal officials came to understand that they were permitted to observe
but not direct, the so-called "eyes on, hands off" approach, and could not require contractors to
correct known security deficiencies. In this case, we observed that while LANL developed a
CAS process, the target metrics selected for cost, schedule, risk and quality failed to provide
proactive indicators of risks in these areas. In fact, an August 2012 Los Alamos Field Office
CAS Project Execution assessment stated there was not a clear consensus on how the targets for
each criterion were developed.

                                       Corrective Actions

The lack of proper staffing, clear lines of authority and engagement of Federal officials
contributed to an environment in which effective correction of disclosed problems could not be
ensured or validated. Consistent with this environment, we noted that effective corrective
actions had not been taken by the Los Alamos Field Office and LANL to address project
management issues identified in numerous independent assessments. For example, the Office of
Defense Nuclear Security sent a May 2010 memorandum that raised concerns to the Los Alamos
Field Office regarding the project. The memorandum expressed concern that the Federal Project
Director had brought the issue of design deficiencies, among other things, to the attention of the
NMSSUP project team; however, effective resolution had not been achieved. The Office of
Defense Nuclear Security stated that it was relying on the Los Alamos Field Office to support the
Federal Project Director. Although LANL prepared a corrective action plan to address the
concerns of the Office of Defense Nuclear Security, we question the effectiveness of the planned
corrective actions and the Los Alamos Field Office's oversight activities given the overwhelming
evidence that the problems outlined in the May 2010 memorandum were not adequately
addressed.

For its part, LANL also failed to adequately respond to identified findings and concerns about
the project. For example, LANL did not adequately address NNSA Headquarters and
independent review concerns regarding the lack of an integrated construction schedule necessary
                                                5


to coordinate work between the various design and construction contractors. As early as May
2010, NNSA Headquarters officials expressed concern regarding the lack of proper construction
sequence planning that was impacting construction and other activities. LANL expressed the
belief that its summary schedule of the contractors' individual schedules achieved the purposes of
an integrated schedule. Yet, we found that the summary failed to identify the cascading effects of
delays between contractors as would have been revealed by a fully integrated schedule. As of
July 2013, NNSA officials told us LANL still did not have an accurate, resource-loaded, fully
integrated schedule.

Similarly, LANL failed to address independent review findings that it approved baseline change
control proposals without a definitive scope, budget and schedule. According to a January 2011
peer review, multiple proposals had no supporting documentation, loosely defined scopes of
work, and that they were inappropriately were used by project officials to expedite the
authorization of new work. The review also noted these baseline change proposals were not
processed in a timely manner and were rarely seen or approved by the Los Alamos Field Office.

                                    Contractor Accountability

Additionally, we found that LANL had not taken appropriate actions to hold subcontractors
accountable for substandard work. Although LANL Subcontractor Technical Representatives,
security officials, quality assurance personnel and inspectors reported quality problems to
management and the contracting administrator, we were unable to find any evidence that
payment was withheld based on quality issues. According to a LANL Contract Administrator,
LANL did not withhold payments for quality issues and did not have a policy or procedure for
withholding payment for non-conformance with quality standards beyond the standard 10 percent
retention clause included in subcontracts.

                                     Management Reporting

Finally, LANL's CAS consistently reported satisfactory project performance even though NNSA's
and the Department's assessments indicated that the project was in jeopardy. We found that this
inconsistency was directly tied to LANL's choice of using performance targets that were easily
achievable and/or did not predict or satisfactorily address emerging problems. NNSA officials
told us they were aware of the inconsistencies in the project performance reports; however, data
inaccuracies prevented them from knowing the extent of the problems. Several NNSA
assessments identified issues with the accuracy schedule data throughout the project and
concluded that LANL's system to measure project performance was suspected and as such, may
not have been a good indicator of project performance. In fact, a June 2013 EVMS Review
concluded that LANL did not maintain and implement its approved EVMS as required by
Department Order 413.3B, Program and Project Management for the Acquisition of Capital
Assets. The report stated that due to lack of data quality, LANL's EVMS data should not be
relied upon to make meaningful management decisions.

                                         Project Impacts

These project management issues created a series of problems that collectively resulted in
significant unanticipated cost and schedule impacts. LANL estimated that project management,
                                                6


suspension, compensatory security measures, and additional contingency costs would exceed the
project's approved budget. As a result, the project will be delayed approximately 1 year and will
require an additional $41 million more than anticipated to complete.

Although it failed to take effective action to address project management weaknesses in
NMSSUP, the Department implemented detective controls that identified many of the issues in
this report and are key tools for holding Department contractors accountable for their
performance. Specifically, the Department implemented the Project Assessment and Reporting
System (PARS II), which is the Department's official "System of Record" for capital asset
project performance information. PARS II includes analytical tools such as the schedule
dashboard and the duration index. This index actually identified the unrealistic future schedule
performance required to meet NMSSUP schedule milestones. Furthermore, the Department's
Office of Acquisition and Project Management, NNSA's APM, and the Los Alamos Field Office
conducted over 10 Project, EVMS and CAS reviews on NMSSUP since 2008. These reviews
along with PARS II assessments consistently identified project management concerns regarding
cost, schedule and EVMS reporting, as well as project staffing concerns. NNSA officials
acknowledged that, even though they received output from these systems, adequate action was
not taken to resolve the issues identified over the project's life cycle.

NNSA had taken a number of positive actions to hold LANS accountable for lack of
performance. For example, from 2010 to 2012, NNSA reduced LANS' at-risk fee by $22
million. Also, shortly after the project was suspended, NNSA took action to hold LANS
responsible for the cost overruns and other project management shortcomings. In October 2012,
NNSA's APM chartered a cross-functional NNSA team that led to a negotiated settlement with
LANS of $10 million toward unallowable project costs. NNSA's APM also made changes to the
project team lead Federal Project Director as part of a broader reorganization within NNSA to
provide greater oversight and control over major construction projects. The new Federal Project
Director was appropriately certified and assigned Contracting Officer's Representative authority
for LANL under the NMSSUP project. In addition, NNSA's APM implemented weekly "Tag
Up" meetings to provide greater oversight and established new performance measures for
contingency that include the impact of cost overruns and potential liabilities. NNSA also
requested and received authority to reprogram $31 million to fund the remaining project cost
overruns; funds that could have been used for other high-priority NNSA mission needs. Finally,
NNSA has aligned management responsibilities and authorities throughout the organization and
implemented additional project management controls.

Despite these actions, project management concerns remain following the suspension period. A
May 2013 peer review and June 2013 EVMS review continued to cite data quality concerns,
concluding that project data should not be relied upon to make meaningful management
decisions. Both reviews determined that the LANL schedule was unrealistic and/or unexecutable,
and that officials continued to forecast optimistic future schedule performance despite repeated
and significant delays. In fact, in a September 2013 weekly status report, NNSA forecasted that
NMSSUP would not meet the December 2013, Critical Decision-4 completion date and revised
completion to February 2014. Therefore, continued, sustained effort is necessary to address the
project management weaknesses that exist within NNSA. As such, we made recommendations
to further improve project management.
                                                 7


MANAGEMENT REACTION AND AUDITOR COMMENTS

NNSA management concurred with the report's recommendations and acknowledged the
problems that previously plagued the project. Management also indicated that, in some cases, it
had already taken actions to address specific weaknesses identified in our report. For example,
management installed a new Federal Project Director with the appropriate certification and full
Contracting Officer's Representative authority. Management disagreed with our description of the
evolution of NMSSUP's cost baseline and our conclusion that the project's costs exceeded its
approved budget by $41 million. Specifically, management stated that it would be more
appropriate to compare the original baseline total project cost of $245 million and exclude
LANL's payment of $10 million from the $254 million currently estimated to be spent. With this
exclusion, management concluded that the project's current total project cost of $244 million was
$1 million below the original baseline plan.

We consider management's comments and planned corrective actions to be fully responsive to our
findings and recommendations. While we acknowledge that the current estimated cost to
complete the project, less LANL's contribution of $10 million, is $1 million less than the original
baseline plan, we noted that the current project will deliver only the scope contained in the $213
million estimate.

Management's comments are included in Appendix 4.

Attachment

cc:   Deputy Secretary
      Acting Administrator, National Nuclear Security Administration
      Chief of Staff
SPECIAL REPORT ON NNSA'S MANAGEMENT OF THE $245 MILLION
NUCLEAR MATERIALS SAFEGUARDS AND SECURITY UPGRADES
PROJECT PHASE II AT LOS ALAMOS NATIONAL LABORATORY


TABLE OF
CONTENTS

Construction Project Management


Details of Finding ............................................................................................................................... 1

Recommendations ............................................................................................................................ 12

Management Reaction ...................................................................................................................... 13

Auditor Comments............................................................................................................................ 14


Appendices

     1. Comparison of Assessments ................................................................................................. 15

     2. Objective, Scope and Methodology ...................................................................................... 16

     3. Related Reports..................................................................................................................... 17

     4. Management Comments ....................................................................................................... 19
NNSA'S MANAGEMENT OF THE $245 MILLION NUCLEAR MATERIALS
SAFEGUARDS AND SECURITY UPGRADES PROJECT PHASE II AT
LOS ALAMOS NATIONAL LABORATORY

Background

Phase II of the Nuclear Materials Safeguards and Security Upgrades Project (NMSSUP) at Los
Alamos National Laboratory (LANL) was designed to replace the existing exterior physical security
systems at the Laboratory's Technical Area-55. The upgrade was to provide for entry controls as
well as infrastructure upgrades. Technical Area-55 houses LANL's high security plutonium assets
and operations area. The current phase of the project also includes enhanced systems to support the
centralized security control infrastructure. Los Alamos National Security, LLC (LANS) manages
and operates the Laboratory for the National Nuclear Security Administration (NNSA).

NMSSUP was initially planned as a project to be completed under one contract awarded to a single
contractor. However, because proposals received exceeded Government estimates for total project
costs, LANL was directed to divide the project into five separate subcontracts. According to the
Los Alamos Field Office, this action was taken after significant analysis and lessons learned from
the initial procurement experience on the project when it was bid as a single contract. The
subprojects included the West Vehicle Access, Entry Control Facility, South Security Fence, North
Security Fence and Utility Building/Utility Trunk. 1 Each subproject had characteristics unique to
its purpose or, in the case of the North and South Security Fences, topography differences that
required varied solutions. The installation of physical barriers such as fencing, detection equipment
and alarms, was common to all subprojects.

Implementation of the revised acquisition strategy resulted in favorable bids, a factor that caused
the NNSA to reduce the total project cost from $245 million to $213 million. Construction
completion was scheduled for September 2012, with systems testing and verification to be
completed by January 2013. However, during startup testing of a completed portion of the security
alarm system in September 2012, LANL discovered an error in the installation of the duct bank,
which housed various cabling needed for alarms and other systems. This error led to the erroneous
co-location of security alarm fiber optic cables and a lack of required system redundancy, a problem
that impacted all subprojects.

The discovery of the duct bank related problems, along with various quality issues, prompted
LANL's suspension of project work and eventual determination that NMSSUP required additional
funding and time to complete the project. In January 2013, LANL submitted a revised estimate that
increased the total project cost to $254 million and extended project completion to December 2013.
NNSA approved the additional funding needed, less a $10 million settlement from LANS, and work
resumed on the project in January 2013.

Project Management and Reporting

During the course of our review, we identified issues with the construction project management of
NMSSUP, including work planning deficiencies, substandard construction work and management
systems that failed to provide a clear and consistent view of the project's schedule and cost
performance.
1
 North and South Security Fences consist of security fencing with detection sensors, video assessment systems, barriers
and a patrol/maintenance road.



Page 1                                                                                      Details of Finding
                                     Work Planning Deficiencies

NNSA and LANL did not ensure that work scope was fully and accurately planned before entering
into construction contracts. Specifically, LANL made scope changes and authorized work with
incomplete designs and cost estimates. For example, LANL awarded a contract in 2010 to construct
the North Security Fence without ensuring that the design adequately considered up-to-date site
conditions. A 2007 site survey determined that there was sufficient supporting soil available to
construct the North Security Fence. However, the land eroded due to environmental conditions after
the completion of the survey and LANL did not update the contracted design to reflect that there was
no longer sufficient support for the North Security Fence. To address this issue, LANL authorized
the construction of a retaining wall, again without updating designs or developing a complete cost
estimate.

After construction began, project officials discovered that they had failed to identify that the
retaining wall foundations were in the path of an existing radioactive liquid waste line. As a result,
an additional retaining wall was required. During a project cost review performed in November
2012, NNSA determined the additional, unplanned retaining wall increased project costs by $11.7
million. An estimated $8.9 million of the total $11.7 million retaining wall costs were the result of
cost impacts or delays to other subcontracts. For example, cost impacts included $4.2 million in
additional security costs and $1.7 million to a construction contractor unable to proceed with
improvements in the North Security Fence area until the additional retaining wall was complete.

In another case, LANL contracted for construction of the West Vehicle Access without ensuring that
the design included all security requirements. For example, enhancements to detection and
assessment capabilities necessary to complete the security portion of the West Vehicle Access were
not included. Additionally, road modifications necessary to prevent drivers from unsafely crossing
outgoing traffic to access the West Vehicle Access facility badge reader had not been addressed in
the overall design. The required changes resulted in an increase in project cost of $2.6 million and
contributed to the West Vehicle Access facility not being substantially completed until July 2012,
16 months behind schedule. The scope changes to the North Security Fence and West Vehicle
Access added a total of $14.3 million to NMSSUP project costs.

                                   Design and Construction Quality

Similarly, NNSA and LANL did not ensure that construction contractors performed quality work.
For example, a contractor incorrectly installed a duct bank, which led to the co-location of alarm
fiber optic cables because design drawings contained conflicting instructions. Security system
cabling for the protection of special nuclear materials must be redundant and physically separated to
avoid a single-point failure within the system. However, construction contractors co-located cables
from different security systems, thereby creating a single-point of failure within the security system.
Although LANL identified and had the contractor correct the co-location of fiber optic cables in one
section of the project during 2011, LANL did not determine whether an adjoining section had similar
errors of co-located fiber optic cables. The extent of this problem affected the entire project and was
not identified until mid-September 2012, during startup and testing of the security systems.
Furthermore, during our examination of completed work, LANL Security officials pointed out many
examples of substandard work performed by the construction subcontractors, including a concrete
section that had missing dowels for the connecting concrete pour and several quality problems
related to fencing. As to fencing, we observed problems related to post spacing, post plumbness,

Page 2                                                                          Details of Finding
post-hole centering, height of concrete crowns, and grading for drainage. Similarly, LANL Security
officials showed us pictures of fence posts installed with improper drainage due to pole foundations
being installed 6 inches below grade (Picture 1); and the lack of crowning of concrete to facilitate
water drainage away from the fence posts (Picture 2). LANL Security officials explained to us that
as the organization responsible for operation of NMSSUP following project completion, they were
concerned with the quality problems they witnessed during construction, but did not have authority
to direct the subcontractors to correct observed quality problems. Instead, security officials reported
identified problems to the NMSSUP project team.

                                             Picture 1:
                          Pole Foundations Installed 6 Inches Below Grade




                                             Picture 2:
                              Lack of Water Drainage from Fence Posts




In February 2013, we accompanied LANL security officials on a tour of the construction site and
found that these issues had not been corrected.




Page 3                                                                          Details of Finding
                                  Management Information Systems

LANL and the Los Alamos Field Office did not ensure that management information systems
provided complete and accurate information necessary to manage the work of multiple contractors
and to apprise senior NNSA management as to the cost and schedule status of the project. In fact, a
June 2013 Earned Value Management System (EVMS) review concluded that LANL did not
maintain and implement its approved EVMS as required by Department Order 413.3B, Program and
Project Management for the Acquisition of Capital Assets. The review raised serious concerns
regarding LANL's implementation of its EVMS and its ability to use this valuable tool to monitor and
control project performance. In addition, the reviewers concluded that due to the lack of data quality,
LANL's EVMS data should not be relied upon for independent assessment of project performance or
to make meaningful management decisions.

                                    Project Schedule Management

LANL did not have an accurate and fully integrated schedule to manage the project. Although
LANL officials stated that they had an approved integrated schedule as far back as June 2009, the
schedule as executed contained accuracy and integration concerns between the subprojects as
identified in several reviews from 2010 to 2013. For example, a January 2011 peer review reported
the combined project critical path was not clear because links did not exist to measure the impact of
new activities and interface impacts across subprojects. A former Chief of Defense Nuclear Security
expressed his concern that LANL was unable to produce an integrated schedule in 2011. In fact, he
reported to have felt "blind" to the schedule. In 2012, a follow-up peer review determined that the
summary working schedule used to manage the construction activities had not been fully integrated,
resulting in a less than adequate schedule for determining the remaining work effort. The review
identified hundreds of construction activities that were not logically tied to preceding or succeeding
activities or were out of sequence.

Finally, a May 2013 peer review and a June 2013 LANL EVMS review concluded that similar
schedule issues remained after the project restarted following the suspension period. The peer
review determined that the schedule was incomplete and was missing activities, some of which were
near critical path work. For example, the schedule did not include rework of the North Fence and
engineering, procurement and installation of the engineered road section over the manholes. The
EVMS review issued 52 Corrective Action Requests and determined that LANL's EVMS did not
comply with 23 of 32 American National Standards Institute guidelines.

The review also identified critical path issues for each of the four subprojects, and the deficiencies
identified made the schedules unreliable for managing the project. According to the NMSSUP
Project Execution Plan, the EVMS monitors the project's achievement of, or deviation from,
established cost and schedule goals. EVMS cost and schedule metrics rely on the input of accurate
and up-to-date schedule data because metric calculations are based on a comparison of schedule and
cost performance against actual work accomplished and its associated cost.

Therefore, the reviews concluded that the NMSSUP schedule and EVMS were unrealistic and should
not be relied upon to make meaningful management decisions or forecasting performance. NNSA's
position as of July 2013, confirmed that LANL did not have an accurate, fully integrated schedule.
According to NNSA officials, the schedule was not loaded with the resources needed to perform the
work scope and it was not fully integrated between the subcontractors.



Page 4                                                                          Details of Finding
                                       Project Activity Reporting

LANL did not accurately report schedule and cost performance, in its EVMS, nor to the Department
of Energy's (Department) Project Assessment and Reporting System (PARS II), key systems
designed to alert LANL and NNSA senior managers about the status of the project. Several NNSA
assessments throughout the project found that schedule data in those systems was inaccurate. As
such, the assessors concluded that LANL's EVMS performance measures were unreliable. In April
2012, a Department's PARS II assessment reported that the lack of an accurate integrated, resource-
loaded schedule for a period of approximately 10 months resulted in reporting inaccuracies of project
performance. The assessment further noted that without an updated schedule, EVMS data was
suspect and may not have been a good indicator of project performance.

LANL also inaccurately reported schedule performance, which masked the impact of project delays
by assuming unrealistic future performance. LANL uploaded project schedule data into the PARS II.
Our review of the data revealed that LANL reported wide fluctuations in schedule delays. As shown
in Table 1, in January 2011, the PARS II reported that no activities were 90 days late; however, in the
following month, nearly 800 activities were reported as more than 90 days late. In January 2012, no
activities were reported as more than 90 days late. In February 2012, the number of activities in
excess of 90 days increased to nearly 1,300 activities, similar to the trend reported in December 2011.
LANL project management officials were unable to explain the inconsistency in data. In addition,
we noticed that PARS II also provides a Duration Index to indicate how quickly the remaining
activities must be completed for the contractor to remain on schedule. For example, the 1.47
Duration Index for both December 2011, and February 2012, indicated that LANL planned to
perform the remaining scope of work in 47 percent less time than originally scheduled. Given the
past negative schedule performance trends, this level of performance appeared to be highly unlikely,
should not have been relied on, and in fact, was not sustained.

                                               Table 1:
                                      PARS II Schedule Dashboard
                       NMSUPP II End Date Slips (Days)                         Duration
                               < 30     > 30         > 60            > 90      Index
         Aug-10        1,217                    80           47       91           1.13
         Sep-10              500               155          162      458           1.36
         Dec-10              802               246          167      683           1.42
         Jan-11             1,943                2                                 1.00
         Feb-11              874               205          155       790          1.45
         Dec-11              890               248          171      1,254         1.47
         Jan-12             2,712                1                                 1.00
         Feb-12              919               260          169      1,269         1.47
         Apr-12              847               288           25       25           1.09
         May-12              767               326           59       28            1.2

The May 2013 Peer Review cited similar concerns with the project schedule since the restart of the
project. The review stated that the project schedule was theoretically sound and reasonable.
However, it also pointed out that due to lack of performance and critical path delays, the schedule
was not achievable. Specifically, no activities were completed on schedule after the restart, yet the
optimistic bias of project team showed that going forward all activities will not only complete on


Page 5                                                                         Details of Finding
time but early. The peer review estimated the project had experienced a schedule delay of at least 6
weeks and determined that it would likely encounter additional schedule delays. As a result, the
review concluded that LANL did not have a realistic schedule for project completion.

                                        Project Cost Reporting

LANL's and NNSA's management systems failed to provide a clear and consistent view of the
project's cost performance. Specifically, we determined that information provided by the NMSSUP
project team was used as a basis to brief the Administrator of the NNSA did not disclose the full
impact to contingency of forecasted or potential liabilities and cost overruns. The project liability
impacts, however, were disclosed to a former Chief of Defense Nuclear Security in separate
briefings. We found that the reported contingency varied by nearly $30 million between the two
briefings. For example, as shown in Table 2 (page 7), September 2011 data in project briefings to the
NNSA Administrator reported nearly $37 million in remaining contingency funds, yet the last
monthly report using August 2011 data to the Office of Defense Nuclear Security disclosed that only
$7 million was available due to forecasted liabilities associated with unapproved work. NNSA stated
that since early 2012, narrative briefings informed the Administrator that the project was in danger of
exhausting the approved funds based on potential liabilities. However, we reviewed the
Administrator briefing documents for February through May that showed there was sufficient
contingency to address the potential liabilities. For example, the February 2012 briefing document
stated total contingency of $28.9 million and total potential liabilities of $13 million. Only the May
2012 narrative contained information that the project had exhausted its funding. Specifically, the
briefing document indicated a potential funding shortfall of $4.6 million based on the estimated total
project costs of $217.6 million compared to the approved funding of $213 million. The disclosure of
a potential funding shortfall, however, was inconsistent with other information presented in the
briefing that stated total contingency of $24.7 million was available, which was more than sufficient
to cover total potential liabilities of about $5 million.

In addition to project liabilities, the Los Alamos Field Office did not fully report the amount of
contingency funds required to cover cost overruns to NNSA's management. The Chief of Defense
Nuclear Security stated that although he was informed of the potential liabilities, he was not informed
of the magnitude of the project cost overrun that would require contingency funds. Further, NNSA
officials told us they were aware of the inconsistencies in the project performance reports; however,
data inaccuracies prevented them knowing the extent of the problems. By the time
August/September 2012 contingency data was reported, the NMSSUP team reported $22.7 million of
contingency funds available to the Administrator; however, according to our calculations, unreported
liabilities and cost overruns that totaled more than $44 million resulted in an actual contingency
shortfall of $21.6 million. As shown in Table 2, a smaller contingency shortfall was evident as early
as September 2011. According to a Department official who NNSA referred us to as a subject matter
expert on contingency, project contingency should have been adjusted to reflect the amount of
potential liabilities and cost overruns. Such adjustments to contingency funds ensures that
sufficient contingency funds are available to avoid exceeding project funding levels. If this
information had been disclosed, NNSA may have been able to take action to avoid the project
shutdown a year later.




Page 6                                                                         Details of Finding
                                                 Table 2:
                 Effect of Liabilities and Cost Overruns on Contingency Fund Reports

                                                                               Contingency
                        Reports to NNSA Reports to Defense Total Impact of      Shortfall
     Data Date           Administrator   Nuclear Security Liabilities & Cost   Compared to
      Presented            (PARS II)      NA-70 Net of        Overruns       Reports to NNSA
     Month/Year                             Liabilities                       Administrator

 Sep - 11              $36,852,000           $7,356,088             ($38,129,912)          ($1,277,912)

 Aug/Sep - 12          $22,661,550           ($1,452,000)*          ($44,294,625)          ($21,633,075)

 * The last report to Defense Nuclear Security before the shutdown contained August 2012 data.

Also, had a thorough analysis been completed to determine the extent of the cost, scope and budget
variances, NNSA would have been better positioned to improve management of the NMSSUP
project at both the Federal and LANL levels. According to NNSA, contingency funds reported to the
NNSA Administrator were automatically generated in the PARS II system based on approved
baseline changes, which could take several months to be reflected in the reporting system. In
addition, LANL stated contingency funds did not reflect cost overruns because baseline changes
could not be processed for cost overruns. We believe that reporting contingency funds based only on
approved baseline changes is a lagging indicator of available project funding because it lacks two
major elements effecting contingency funds – potential liabilities and cost overruns. Finally, our
review of PARS II contradicted the automated constraints cited by NNSA and LANL. The Federal
Project Director manually enters remaining contingency funds into the system on a monthly basis.
Therefore, the Department could broaden the definition to potential liabilities and cost overruns as
recommended by the Department's contingency subject matter expert.

NNSA and LANL Management

Project management weaknesses existed or continued to exist despite being identified because:
(1) key management officials were not qualified or authorized to take prompt action; (2) the Los
Alamos Field Office and LANL did not implement effective corrective actions to address numerous
assessments findings; (3) LANL failed to hold its contractors accountable; and (4) NNSA and LANL
did not have accurate management reporting systems.

                                   Federal Project Staffing and Authorities

The Los Alamos Field Office did not staff the NMSSUP for successful project execution and did not
provide sufficient authority to the Federal Project Director to correct LANL performance concerns.
NMSSUP's $245 million total project cost required the Federal Project Director to have Level-3
certification in project management. However, contrary to Department Order 361.1B, Acquisition
Career Management Program, the Los Alamos Field Office assigned a Federal Project Director
without the necessary certifications to manage a project of NMSSUP's size.

Project reviews identified this as a concern as early as 2008. One review recommended that the Los
Alamos Field Office identify an appropriately certified Federal Project Director or authorize the

Page 7                                                                                   Details of Finding
existing Federal Project Director to obtain Level-3 certification within a year of appointment and
monitor his performance regularly. The lack of appropriate certification continued to be a concern
and was highlighted in NMSSUP Red/Yellow Reports. In fact, NNSA stated it expected the
NMSSUP Federal Project Director to receive appropriate certification by June 2011 in its Fiscal
Year 2012 Congressional Budget Request, but that did not occur.

In addition, the Federal Project Director overseeing the NMSSUP was not granted the authority
needed to direct the project. Specifically, Department Order 413.3B recommends appointing the
Federal Project Director as the Contracting Officer's Representative (COR). The Order does not
require COR authority for Federal Project Directors. Further, Los Alamos Field Office officials told
us they were following a local practice, which limits the number of Federal employees providing
official direction to LANL. Without contractual authority, the Federal Project Director was unable
to direct LANL to correct problems, such as those related to quality, without enlisting the help of
other NNSA officials. However, he was also held accountable for successful execution of the
project. Moreover, several NNSA reviews as early as September 2009, identified the lack of COR
authority as adversely impacting the Federal Project Director's ability to acquire information timely
or direct LANL in project performance. The reviews recommended that the Los Alamos Field
Office authorize the Federal Project Director to complete COR certification requirements and
delegate COR authority to him.

Despite project review recommendations, a senior Los Alamos Field Office official was appointed as
the COR, but he was not in a position to effectively monitor the project. As the appointed COR, it
was the senior level official's responsibility to direct LANL to correct problems, such as those
related to quality. Specifically, the NMSSUP COR oversight responsibilities, which cannot be
redelegated, included redirecting project effort and work emphasis, providing written technical and
performance direction, and providing written notice to the Contracting Officer of significant
contractual performance failure and if the project would not be completed according to schedule,
and/or estimated cost. However, the senior official provided us with only one written memorandum
to LANL that formally communicated performance issues. Although the Federal Project Director
identified the majority of these issues in the middle of 2010, formal written communication was not
done until April 2011. A March 2012 Peer Review observed that the senior level official did not
appear to be actively engaged with the day-to-day activities of the project. The senior official told us
he had numerous other responsibilities in addition to NMSSUP COR and was relying on the Federal
Project Director to provide with the LANL performance concerns requiring his attention. According
to NNSA management, problems with the Federal Project Director's authority and certification
continued until a high level organizational realignment reassigned the Federal Project Directors to
NNSA's Office of Acquisition and Project Management (APM). Upon enactment of the
reorganization, APM immediately appointed a properly certified Federal Project Director with
formal COR authority and more direct access to both NNSA management and the NMSSUP
Contracting Officer.

                                          Corrective Actions

The lack of proper staffing and clear lines of Federal authorities, in turn, contributed to a lack of
effective corrective action on the part Los Alamos Field Office and LANL to address project
management issues identified in numerous independent assessments and reiterated in the Office of
Defense Nuclear Security's May 2010 memorandum. Specifically, in May 2010, the Chief of
Defense Nuclear Security sent a memorandum to the Los Alamos Field Office expressing concern


Page 8                                                                          Details of Finding
over issues associated with security interfaces, design insufficiencies and construction scheduling.
The memorandum stated that the Federal Project Director had repeatedly brought these and other
issues to the attention of the NMSSUP project team; however, effective resolution by LANL had not
been achieved. The Office of Defense Nuclear Security stated that it was relying upon the Los
Alamos Field Office to support the Federal Project Director and address the aforementioned
problems outlined in the memorandum. Despite numerous reports and communications citing
LANL project management concerns and the Federal Project Director's certification and authority,
the Los Alamos Field Office failed to correct the deficiencies with more active engagement of the
senior official.

We noted that LANL developed a corrective action plan to address the concerns expressed by the
Office of Defense Nuclear Security. The Los Alamos Field Office followed up on LANL's actions
through the oversight activities performed by the Federal Project Director and monthly project
review meetings. However, we question the effectiveness of LANL's corrective actions and the Los
Alamos Field Office's oversight activities given the overwhelming evidence that the problems
outlined in the May 2010 memorandum continued throughout project execution.

For its part, LANL also failed to adequately respond to identified findings and concerns about the
project. For example, LANL did not adequately respond to independent review concerns about the
lack of an integrated construction schedule necessary to coordinate work between the various design
and construction contractors. As early as May 2010, the Office of Defense Nuclear Security
expressed concern regarding the lack of proper construction sequence planning that was impacting
construction and other activities. Although LANL officials believed that the summary schedule of
the contractors' individual schedules achieved the purposes of an integrated schedule, the summary
schedule failed to identify the cascading effects of schedule delays of one contractor on another as
would have been shown in a fully integrated schedule. As of July 2013, these schedule concerns had
not been corrected.

Similarly, LANL did not correct weaknesses identified in its baseline change control process that
adversely affected its reporting of project cost and scheduled performance to management.
Specifically, in January 2011, a peer review reported that LANL approved some Baseline Change
Proposals (BCPs) without a definitive scope, budget and schedule. These BCPs had no supporting
documentation, contained a loosely defined scope of work, and were used by the project to expedite
the authorization of new work. This is not a proper use of the baseline change process because it
allows the use of project funds without a proper definition of the work scope and a valid cost
estimate for performing the work. The January 2011 review also noted that these BCPs were not
processed in a timely manner and were rarely seen or approved by the Los Alamos Field Office. For
example, in July 2010, LANL directed a subcontractor to build a retaining wall under a series of
change requests without a completed engineered solution and construction estimate; however, a BCP
was not approved until almost a year following the first submission. To address this issue, the peer
review recommended that LANL properly process BCPs as quickly as possible.

In response, rather than improving the timeliness of BCPs, LANL implemented an "Express BCP"
process, which allowed LANL to authorize critical new work without cost estimates and NNSA
approval when stopping work to process a BCP would negatively impact cost and schedule. Express
BCPs were required to be followed by an approved BCP within 60 days of signature of the Express
BCP. However, during the course of our review, we identified an Express BCP authorized by LANL
in March 2012 for payment to a construction contractor to cover the additional cost of work


Page 9                                                                       Details of Finding
performed. The follow-on BCP, which should have occurred by May 2012, was never approved.
LANL stated that NNSA incorporated approval of this BCP when NNSA approved additional
funding in January 2013, 10 months after its submission.

Without timely processing of baseline change documents, the impact of the changes was not visible
in the systems used by NNSA to manage the project. Without current schedule and cost data,
NNSA's ability to identify and mitigate potential problems was hindered.

                                     Contractor Accountability

Additionally, we found that LANL had not taken appropriate actions to hold subcontractors
accountable for substandard work. In particular, although LANL's Subcontractor Technical
Representatives, quality assurance personnel and inspectors reported quality problems to
management and the contract administrator, we were unable to find any evidence that payment was
withheld based upon quality issues. According to a LANL Contract Administrator, LANL did not
have a policy or procedure for withholding payment for non-conformance with quality standards
beyond the 10 percent retention in the subcontracts.

                          LANL's Contractor Assurance System Reporting

LANL's Contractor Assurance System (CAS) failed to provide management with an accurate report
on the NMSSUP project. Specifically, the CAS consistently reflected satisfactory project
performance, contrary to the actual project performance and project assessments by Department
personnel (Appendix 1). During our review of the security breach at the Y-12 National Security
Complex, Inquiry into the Security Breach at the National Nuclear Security Administration's Y-12
National Security Complex (DOE/IG-0868, August 2012), we observed that the Y-12 National
Security Complex provided similar positive CAS reports preceding the security incident at that site.
For example, we identified that the CAS and local Federal oversight contributed to an atmosphere in
which three trespassers gained access to the protected security area directly adjacent to one of the
Nation's most critically important and highly secured weapons-related facilities. Specifically, we
found that, since 2010, the CAS reports and Federal oversight efforts indicated to senior NNSA
officials that the site's physical security systems were functioning as intended. Similarly, LANL's
CAS reported the NMSSUP project was proceeding as planned for schedule and cost, even in the
months immediately preceding the project shutdown.

Like other NNSA sites, LANL is contractually required to develop a CAS that incorporates the
principles of the sites quality assurance program. The purpose of the CAS is to ensure that products
or services meet customer expectations, report comprehensive operational and other data, including
subcontractor performance, and identify and correct negative performance trends before these trends
become significant issues. In our 2013 review of NNSA contractor governance, Audit Report on the
National Nuclear Security Administration Contractor Governance (DOE/IG-0881, February 2013),
we reported weaknesses in NNSA's approach to ensuring that assurance systems were effectively
implemented by the contractors. In particular, we found that Federal officials had not provided
effective oversight of contractor operations as part of the governance approach. In fact, Federal
officials at one NNSA site told us that with the advent of NNSA's CAS they perceived that they were
no longer permitted to intervene in addressing identified problems. While LANL developed a CAS
process, the target metrics selected for cost, schedule, risk and quality failed to provide proactive
indicators of risks in these areas. In fact, an August 2012 Los Alamos Field Office CAS Project



Page 10                                                                       Details of Finding
Execution Assessment stated there was not a clear consensus on how the targets for each criterion
were developed. The targets for cost, schedule, risk and quality were typically set at the lowest value
of the green performance range.

Our review of CAS data revealed that performance metrics were generally reported as green;
thereby indicating that project execution was occurring as planned. One of the metrics, CAS Risk,
measured the ratio of available contingency funds compared to the current estimated cost to
complete the project. For example, the CAS risk score of 4.76 reported in September 2012,
(Appendix 1) indicated that the project had more available contingency funds than was needed to
complete the project, when in fact, as previously discussed, this was not accurate. Further, LANL's
CAS cost and schedule performance indicators showed that NMSSUP's cost and schedule
performance was expected to meet its performance baseline as of September 2012 (reported as
green). In contrast, NNSA and Departmental officials who provided monthly project status
commentary assessed project performance as red, indicating concern that NMSSUP was not being
completed as planned. NNSA's concerns were realized when LANL notified the Los Alamos Field
Office in an October 2012 memo that NMSSUP would not be completed within the congressional
approved funding. In January 2013, LANL revised its CAS reporting data to include the formulas for
metric calculation, details of performance ranges and target, and commentary for performance
reporting as yellow or red, an indicator that the subject of an assessment is in jeopardy of meeting
established goals.

Impact on Security and Project Costs

In addition to contributing to the need to suspend NMSSUP, the project management issues
presented herein resulted in increased costs and schedule delays. In particular, in January 2013,
LANL extended project completion to December 2013, nearly 1 year beyond the original completion
date. The project is also likely to incur an additional $14.4 million in overhead costs associated with
extending the project schedule. LANL estimated $5 million in additional security costs to ensure
adequate protection of the Technical Area-55 facility during the extended construction phase, $6.8
million in project management oversight costs, and $2.6 million for suspension costs associated with
the extended project duration until project completion. In total, NMSSUP will require an additional
$41 million more than anticipated to complete. To cover the increased costs, NNSA requested
authorization from the Department to use $31 million in funding originally planned to cover potential
fee earned by LANL and other contractors for management of Department sites during Fiscal Year
2012.

Although it failed to take effective action to address project management weaknesses in NMSSUP,
the Department had implemented detective controls that identified many of the issues in this report
and are critical to holding Department contractors accountable for their performance. Specifically,
the Department implemented the PARS II, which is the Department's official "System of Record" to
track the progress of major construction projects. Because PARS II uses the same data as maintained
in our contractors' project management systems, everyone from the Federal Project Director's staff to
the Secretary of Energy has access to the same data.

PARS II includes analytical tools such as the schedule dashboard and the duration index, which
identified the unrealistic future schedule performance required to meet schedule milestones.




Page 11                                                                         Details of Finding
Furthermore, the Department's Office of Acquisition and Project Management, NNSA's APM, and
the Los Alamos Field Office performed over 10 project, EVMS and CAS Reviews on NMSSUP
since 2008. These reviews along with PARS II assessments identified many of the project
management concerns regarding cost, schedule, and EVMS reporting as well as project staffing
concerns identified in this report and are key tools for holding Department contractors accountable.
NNSA officials acknowledged that, even though they received the output from these systems,
adequate action to resolve the issues identified over the project's life cycle were not taken.

NNSA took a number of positive actions to hold LANS accountable for lack of performance. For
example from 2010 to 2012, NNSA reduced LANS' at-risk fee by $22 million. In October 2012,
NNSA's APM chartered a cross-functional team that led to a negotiated settlement with LANS of
$10 million toward unallowable project costs. In addition, LANL required changes to improve the
construction contractors' quality control programs prior to restarting project work, increased
engineering oversight at the design firm and on the project work site, and has begun a process for
determining culpability for poor workmanship. Finally, NNSA's APM plans to ensure that
corrective actions are taken to address independent assessment findings prior to attaining the next
critical decision.

To improve Federal oversight, NNSA has aligned management responsibilities and authorities
throughout the organization and implemented additional project management controls. In particular,
NNSA's APM has line authority to provide greater control over major projects such as NMSSUP, and
has established weekly "Tag Up" meetings as well as monthly and quarterly briefs to include
construction work details and performance measures for contingency and management reserve to
include potential liabilities and spending variances. Changes were also made to the project team lead
Federal Project Director. The new Federal Project Director was appropriately certified and
designated as a COR for LANL under the NMSSUP project. Additionally, BCP scope modifications
now require approval by both the Program Office and NNSA's APM, the Federal Project Director
reports to NNSA's APM, and contingency funds will be managed by the Los Alamos Field Office.

Despite these actions, project management concerns remain following the suspension period. A
May 2013 peer review and June 2013 EVMS review continued to cite data quality concerns and that
project data should not be relied upon to make meaningful management decisions. The EVMS
review reported serious concerns regarding LANL's implementation of its EVMS and its ability to
use earned value to manage project performance. Major areas of concern included lack of cost,
schedule and scope integration, lack of schedule integrity and inadequate estimate at completion
implementation. The project experienced a schedule delay of at least 6 weeks and the May 2013
review concluded that the project was not properly positioned to meet the Critical Decision-4 date,
and would likely exceed the $244.2 million total project costs without senior management focus. In
fact, in a September 2013 weekly status report, NNSA forecasted that NMSSUP would not meet the
December 2013 Critical Decision-4 completion date and revised the completion date to February
2014. Continued management focus and sustained effort is necessary to address the project
management weaknesses that exist within NNSA.

RECOMMENDATIONS

To improve the effectiveness of construction project management, we recommend that the Associate
Administrator for Acquisition and Project Management, NNSA ensure that:


Page 12                                                                      Recommendations
    1.    Construction performance measures are consistently reported to all levels of NNSA
          management;

    2.    Reported performance metrics for contingency funds include potential liabilities and
          spending variances;

    3.    Reported performance metrics include the magnitude of cost and schedule variances; and

    4.    Effective corrective actions are taken to address independent assessment findings regarding
          the NMSSUP project.

To promote CAS effectiveness, we recommend that the Acting Manager, Los Alamos Field Office
direct LANL to:

    5.    Ensure that its subcontracts contain adequate clauses and provisions and that these clauses
          and provisions are enforced to hold subcontractors accountable for substandard work;

    6.    Establish performance metrics for construction that measure contractor performance and
          identify and correct negative performance trends before they become significant issues; and

    7.    Effectively correct EVMS deficiencies.

MANAGEMENT REACTION

NNSA management concurred with the report's findings and recommendations and provided
corrective actions that have been taken or are planned to address the issues identified in this report.
For example, management provided the new Federal Project Director a new, highly qualified
contractor project manager, additional federal and contractor support as well as enlisted the support of
the Army Corps of Engineers. Management plans to ensure that LANL fulfills its responsibility to
fully assess all construction contractor claims and reject those that are unallowable. Finally,
management committed to perform a follow-up EVMS review currently scheduled for the third
quarter of FY 2014. Management agreed that additional improvements and continued focus on the
remaining challenges is critical to ensure effective correction of the underlying management issues.

Management disagreed with our description of the evolution of NMSSUP's cost baseline and our
conclusion that the project exceeded its estimate by $41 million. NMSSUP's original total project
cost baseline was $245 million. Management stated that in April 2010, the project reduced the
estimated cost to $213 million without a thorough understanding of the risks and based on unreliable
EVMS data. LANL proposed increasing the total project cost to $254 million in January 2013, but
management rejected that proposal and reached an agreement wherein the contractor would absorb
$10 million and set the new total project cost at $244 million. Therefore, management concluded that
the current total project cost of $244 million is $1 million below the original $245 million baseline
plan.




Page 13                                                                   Management Reaction
AUDITOR COMMENTS

We consider management's comments and planned corrective actions to be fully responsive to our
findings and recommendations. While we acknowledge that the current estimated cost to complete
the project is $1 million less than the original baseline plan, less LANL's contribution of $10 million,
we noted that the current project will only deliver the scope contained in the $213 million estimate.

Management's comments are included in Appendix 4.




Page 14                                                                        Auditor Comments
Appendix 1


                             COMPARISON OF ASSESSMENTS



           LANL Assessments                              PARS II Assessments
                                             CAS                      DOE    NNSA
              CAS CPI         CAS            (Risk         LASO     MA- 63 APM-20,
                              SPI        (Contingency)      FPD               22
           Sep-11     0.95 0.91         2.37
           Feb-12     0.92 0.89         2.64
           May-12     0.91 0.95         2.91
           Jul-12     0.92 0.95         3.35
           Sep-12     0.91 1.01         4.76


   •   CPI – (Cost Performance Indicator) is an index showing the efficiency of the utilization of
       the resources on the project.

   •   SPI – (Schedule Performance Indicator) is an index showing the efficiency of the time
       utilized on the project.




Page 15                                                         Comparison of Assessments
Appendix 2


                         OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this review was to determine the underlying reasons why the Nuclear Materials
Safeguards and Security Upgrades Project Phase II (NMSSUP) was not completed within cost and
schedule.

SCOPE

We conducted the review from October 2012 to September 2013, at Los Alamos National
Laboratory (LANL) in Los Alamos, New Mexico; the National Nuclear Security Administration
(NNSA) Albuquerque Complex, in Albuquerque, New Mexico; and NNSA Headquarters in
Washington, DC.

METHODOLOGY

To accomplish the objective, we:

    •   Reviewed earned value and contractor assurance systems and oversight, and guidance and
        policies and procedures applicable to project management;

    •   Reviewed NMSSUP peer reviews and quality assessments, as well as Laboratory Contractor
        Assurance System and Earned Value Management System evaluations from the Department
        of Energy, NNSA, and the Los Alamos Field Office;

    •   Interviewed key Federal and contractor personnel associated with the NMSSUP and
        oversight responsibilities;

    •   Toured the project site multiple times to include testing a sample of construction activities to
        observe whether construction quality issues identified in July 2012, had been addressed as of
        February 2013;

    •   Reviewed documents related to the project budget, subcontract execution and management,
        design, construction activities, quality assurance and inspections activities, work stoppage,
        and project work restart activities; and

    •   Reviewed various project status reports, including the Project Assessment Reporting
        System, LANL's Contractor Assurance System and monthly project status reports.

Management waived an exit conference.




Page 16                                                     Objective, Scope and Methodology
Appendix 3


                                      RELATED REPORTS

Office of Inspector General Reports

    •   Audit Report on National Nuclear Security Administration Contractor Governance
        (DOE/IG-0881, February 2013). The audit was initiated to evaluate the development of
        contractor assurance systems by the National Nuclear Security Administration (NNSA) and
        its contractors. The audit identified significant implementation issues that adversely
        affected NNSA's ability to deploy an effective contractor governance system. The
        contractor governance system was rendered ineffective by what Federal site-level officials
        referred to as an "eyes on, hands off" approach to contract management. Most troubling,
        while Federal employees knew of problems at the contractor level, they perceived that the
        contractor governance approach prohibited them from intervening in contractor activities.
        Contractor weaknesses identified at the site level were not effectively communicated to
        senior management officials.

    •   Special Report on Inquiry into the Security Breach at the National Nuclear Security
        Administration's Y-12 National Security Complex (DOE/IG-0868, August 2012). This
        review was initiated to examine the circumstances surrounding the July 28, 2012, security
        breach at Y-12 National Security Complex (Y-12). We found that the Y-12 security incident
        represented multiple systems failures on several levels. For example, we identified troubling
        displays of ineptitude in responding to alarms, failures to maintain critical security
        equipment, over reliance on compensatory measures, misunderstanding of security
        protocols, poor communications, and weaknesses in contract and resource management. In
        addition, we determined that contractor governance and Federal oversight failed to identify
        and correct early indicators of these multiple system breakdowns. We made several
        recommendations to further enhance security at Y-12 and across the complex. In response,
        management identified corrective actions it had initiated or completed.

    •   Special Report on Management Challenges at the Department of Energy (DOE/IG-0858,
        November 2011). This annual report identified eight management challenges and placed
        four areas on our "watchlist" for Fiscal Year 2012. Specifically, the report identified
        contract management as a management challenge and safeguards and security as
        a"watchlist" area that warrants special attention by Department officials. The report also
        noted as a management initiative that the Department is committed to such actions as
        realigning roles and responsibilities and improving contract and project management.

Government Accountability Office Reports

    •   National Nuclear Security Administration's Plans for Its Uranium Processing Facility
        Should Better Reflect Funding Estimates and Technology Readiness (GAO-11-103,
        November 2010). The audit was initiated, in part, to assess the NNSA's estimated cost and
        schedule for constructing the Uranium Processing Facility (UPF) at the Y-12 National
        Security Complex in Oak Ridge, Tennessee and determine the extent to which the UPF will
        use new, experimental technologies and any risks to the project's cost and schedule of


Page 17                                                                        Related Reports
Appendix 3 (continued)

       replacing the existing, proven technologies. Specifically, the U.S. Government
       Accountability Office found that UPF project costs more than doubled since NNSA's initial
       estimates in 2004 and construction may be delayed due to funding shortfalls. As of October
       2010, the project's schedule was estimated to be completed as early as 2018, and as late as
       2022. However, due to a funding shortfall in Fiscal Year 2011, NNSA officials expected the
       UPF not to be completed before 2020, which could result in additional costs.

   •   NNSA Needs More Comprehensive Infrastructure and Workforce Data to Improve
       Enterprise Decision-Making (GAO-11-188, February 2011). The audit was initiated to
       assess the extent to which NNSA has the data necessary to make informed, enterprise-wide
       decisions. Specifically, NNSA identified 15 ongoing capital improvement projects to
       replace or improve existing infrastructure, however, NNSA does not have key information
       for a number of these projects, including initial estimates for cost, amount of remaining
       funding needed to complete the project, or completion dates. Additionally, an NNSA
       official explained that changes in project scope and unforeseen complications have hindered
       the agency's ability to estimate costs and completion dates for some projects. It was noted
       that prior audit work identified persistent problems at NNSA with cost overruns and
       schedule delays for capital improvement projects.




Page 18                                                                      Related Reports
Appendix 4

             MANAGEMENT COMMENTS




Page 19                       Management Comments
Appendix 4 (continued)




Page 20                  Management Comments
Appendix 4 (continued)




Page 21                  Management Comments
Appendix 4 (continued)




Page 22                  Management Comments
Appendix 4 (continued)




Page 23                  Management Comments
                                                                    IG Report No. DOE/IG-0901

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
   The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
effective as possible. Therefore, this report will be available electronically through the Internet at the following
                                                      address:

                      U.S. Department of Energy Office of Inspector General Home Page

                                               http://energy.gov/ig

         Your comments would be appreciated and can be provided on the Customer Response Form.
